DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


Memorandum
        DATE:    November 5, 2010                                           Report Number: OAS-L-11-01
    REPLY TO
     ATTN OF:    IG-32 (A09AL024)
     SUBJECT:    Report on "Questioned, Unresolved and Potentially Unallowable Costs Incurred by
                 Sandia Corporation during Fiscal Years 2007 and 2008"
           TO:   Manager, Sandia Site Office

                 BACKGROUND

                 Since 1993, Sandia Corporation, a Lockheed Martin company, has operated Sandia
                 National Laboratories (Sandia) under contract with the Department of Energy
                 (Department). Sandia is part of the Department's National Nuclear Security
                 Administration (NNSA) and has critical national security responsibilities, including
                 helping ensure the safety, security, and reliability of the Nation's nuclear weapons
                 stockpile. During Fiscal Years (FY) 2007 and 2008, Sandia claimed costs totaling
                 $3.0 billion.

                 As a "management and operating" contractor, Sandia's financial accounts are integrated
                 with those of the Department, and the results of financial transactions are reported
                 monthly according to a uniform set of accounts. Sandia is required by its contract to
                 account for all funds advanced by the Department, to safeguard assets in its care, and to
                 claim only allowable costs. Further, Sandia is required to account for costs incurred
                 annually by issuing a Statement of Costs Incurred and Claimed (SCIC).

                 On October 5, 2010, we issued a separate contract audit report on "Audit Coverage of
                 Cost Allowability for Sandia Corporation during Fiscal Years 2007 and 2008 under
                 Department of Energy Contract No. DE-AC04-94AL85000" (OAS-V-11-01,
                 October 2010). One of the objectives of the audit was to determine whether questioned
                 costs and internal control weaknesses impacting allowable costs identified in prior audits
                 and reviews had been adequately resolved. Among other observations, the audit report
                 identified specific costs that had yet to be resolved under the contract.

                 CONCLUSIONS AND OBSERVATIONS

                 We identified over $10 million in questioned and unresolved costs claimed by Sandia
                 during FYs 2007 and 2008. In addition, we noted other concerns which need to be
                 addressed to ensure that only allowable costs are claimed by and reimbursed to Sandia.

                                               Unresolved Questioned Costs

                 The Department had not resolved $10,324,001 in costs questioned by Sandia's internal
                 audit function for FYs 2007 and 2008 (see Attachment 1). These costs included:
       Unresolved FY 2007 and 2008 prime contract costs totaling $8,313,561. The
       majority of the costs involved purchase card transactions. In this context,
       Sandia's internal auditors identified weak enforcement of internal policies related
       to purchase card transactions, business meals, and expense vouchers. Common
       problems included lack of supporting documentation and lack of supervisory
       review.

       Unresolved FY 2007 and 2008 subcontract costs totaling $2,010,440. Some of
       the underlying common issues leading to subcontract questioned costs included
       adjustments to indirect rates, costs not correctly allocated or claimed, and costs
       incurred outside of a subcontract's period of performance.

The Department's Contracting Officer (CO) indicated that unresolved questioned costs
had not received the attention they needed due to other pressing work. To assist the CO
in resolving the outstanding costs, the Sandia Site Office (Site Office) hired a Contract
Specialist. According to the CO, much of the work needed to resolve the costs had been
performed. The CO asserted that Sandia and the Department are close to resolving some
of the costs. In this regard, NNSA management told us that it anticipates that all the
questioned costs will be resolved by June 2011.

                             Unresolved Costs Pending Audit

The Department and Sandia have agreed that home office expenses directly attributable
to the performance of the contract are allowable costs if they meet all other criteria for
allowability. Sandia incurred $3,405,908 in home office expenses in FYs 2007 and 2008.
Before the CO can make a determination of cost allowability, she must wait on the
Defense Contract Audit Agency (DCAA) to schedule and complete its review of
Lockheed Martin Corporation's Corporate Office and the Defense Contract Management
Agency (DCMA) must negotiate a settlement. According to the CO, because the
Department of Defense is Lockheed Martin's predominant Federal contract sponsor, the
Site Office has no control over when DCAA schedules and completes the audit.
Recognizing these challenges, we consider amounts claimed for home office expenses as
unresolved pending audit completion and resolution.

                           Unresolved Costs from Prior Years

We noted that $1,995,544 of costs incurred by Sandia as long as 10 years ago and
previously questioned by the Office of Inspector General (OIG) had not been resolved.
The CO told us that they were working to resolve these costs, which cover items such as
non-employee expense vouchers and business meals. In addition, home office expenses
incurred during FYs 2000 through 2006 totaling $9,601,236 were pending audit (see
Attachment 2). Again the CO asserted that the Department was working to address these
unresolved questioned costs. According to the CO, for some of the costs, the Site Office
is in the end stages of processing a final settlement or is reviewing additional supporting




                                     2
documentation provided by Sandia in June 2010. As previously stated, NNSA
management stated that it anticipates that actions to resolve all the questioned costs will
be completed by June 2011.

                                   Subcontract Oversight

Sandia's procurement function did not effectively review invoices or monitor contract
performance periods to identify weaknesses that resulted in questioned costs for 13
subcontractors. The questioned costs were identified by Sandia's Contract Audit function
but, in some cases, not for several years after the costs were incurred. For example, we
found that Sandia retroactively amended three contracts with one supplier to allow
charges for work performed outside the contracts' period of performance three to six
years after the work was done. These weaknesses affected about 25 percent of the
FY 2007 and 2008 contract audits that had questioned costs. We concluded that the
Department's interest would be better protected if Sandia improved its review of
subcontract invoices, specifically to ensure that potentially unallowable costs are
identified and resolved in a timely manner.

                       Compliance with Cost Accounting Standards

NNSA's Field Chief Financial Officer (CFO) has not signed the FY 2008 SCIC, as
required by the Department's Accounting Handbook. The SCIC is to contain the Field
CFO's signature, which attests that the contractor has established a system of accounting
controls adequate to minimize the risk of incurring unallowable or unreasonable costs.
On January 14, 2010, the Office of Field Financial Management (OFFM) issued a
memorandum to the CO which stated that the FY 2008 SCIC was not approved by the
Field CFO due to Sandia's potential noncompliance with Cost Accounting Standards
(CAS 405, Accounting for Unallowable Costs). Specifically, OFFM was not confident
that sufficient internal accounting controls were in place to prevent unreasonable or
unallowable costs from being charged to government cost objectives during FY 2008. As
of September 2010, OFFM continued to work with the CO and the Department to resolve
this issue. Accordingly, the OIG will not sign the FY 2008 SCIC until corrective actions
are completed and the requisite NNSA Field CFO's endorsement has been provided. The
OIG takes a similar position with regard to the FY 2007 SCIC.

In our contract audit report on costs incurred by Sandia during FYs 2007 and 2008, we
recommended that the Manager, Sandia Site Office, direct the Contracting Officer to:

   1. Make a determination regarding the allowability of questioned costs identified in
      the report and recover those costs determined to be unallowable;

   2. Determine the allowability of allocations from Lockheed Martin Corporation to
      Sandia after DCAA completes its review of Home Office Expenses and DCMA
      negotiates a settlement; and,




                                      3
   3. Ensure that Sandia improves its oversight of subcontractors so that potentially
      unallowable costs are identified in a timely manner.

Management generally agreed with the report and concurred with the recommendations.
Management's response included planned corrective actions to be taken in response to
our recommendations along with milestones for completion. Management's comments
are attached.




                                    David Sedillo, Director
                                    NNSA & Science Audits Division
                                    Office of Inspector General

Attachments

cc: Director, Office of Internal Controls, NA-66
    Director, Office of Risk Management, CF-80
    Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80




                                    4
                                                                                                   Attachment 1


  Summary of Questioned Costs and Unresolved Costs Pending Audit
                     Fiscal Years (FY) 2007 and 2008
                            Sandia Corporation
                    Contract No. DE-AC04-94AL85000


                                       FY 2007                          FY 2008                       Total
   Questioned Cost
     Category                 Questioned     Unresolved         Questioned    Unresolved   Questioned     Unresolved
Internal Audit Findings:
Business Meals                    $765,881       $687,790          $290,637     $289,010    $1,056,518          $976,800
Employee Travel                   $890,707       $890,707              N/A          N/A       $890,707          $890,707
Non-Employee Expenses             $236,080        $82,531           $93,526      $53,431      $329,606          $135,962
Purchase Card Transactions            N/A            N/A         $6,310,092   $6,310,092    $6,310,092        $6,310,092

 Subtotal                       $1,892,668    $1,661,028         $6,694,255   $6,652,533    $8,586,923        $8,313,561

Contract Audit Findings:
Subcontracts                    $2,958,276       $498,440        $3,206,375   $1,512,000    $6,164,651        $2,010,440

Other Questioned Costs:
Legal Settlement                $2,131,198            $0               N/A          N/A     $2,131,198               $0
Unallowable Corporate
Flow-down Costs                  $543,635             $0               N/A          N/A      $543,635                $0
Purchase Card Transactions1       $374,286            $0               N/A          N/A      $374,286                $0


Total Questioned Costs:         $7,900,063    $2,159,468         $9,900,630   $8,164,533   $17,800,693     $10,324,001

   Unresolved Costs
    Pending Audit
Home Office Expense                           $1,792,898                      $1,613,010                      $3,405,908




  1
   These P-Card related questioned costs are from the Office of Inspector General (OIG) Inspection Report: Sandia
  National Laboratory-California Procurement Card Program (IG-0754, January 2007). Although the questioned
  costs have been resolved, they were not reported in previous OIG audits of Sandia Corporation costs incurred.


                                                            5
                                                                 Attachment 2


                            Summary of
          Unresolved Costs – Fiscal Years (FY) 2000 to 2006
                            Sandia Corporation
                Contract No. DE-AC04-94AL85000


Questioned Cost Category and Fiscal Year           Questioned   Unresolved
Internal Audit Findings:


FY 2001      Miscellaneous unallowable costs          $20,489      $16,396
FY 2002      Miscellaneous unallowable costs          $44,444      $30,947
FY 2005      Non-employee expense vouchers         $1,016,258     $932,348
FY 2005      Lack of support                           $1,812       $1,812
FY 2005      Board of Directors                        $7,847       $2,747
FY 2006      Non-employee expense vouchers           $321,085     $248,624
FY 2006      Employee expense vouchers               $502,936     $442,906
FY 2006      Business meals                          $225,960     $217,650
 Subtotal                                          $2,140,831   $1,893,430


Contract Audit Findings:
 FY 2005     Subcontracts                          $2,469,000       $7,555
 FY 2006     Subcontracts                          $2,045,528      $94,559
 Subtotal                                          $4,514,528     $102,114


Total Questioned Costs:                            $6,655,359   $1,995,544


Unresolved Costs Pending Audit
FY 2000      Home Office Expense                                  $963,796
FY 2001      Home Office Expense                                  $779,756
FY 2002      Home Office Expense                                  $949,858
FY 2003      Home Office Expense                                $1,680,329
FY 2004      Home Office Expense                                $1,724,538
FY 2005      Home Office Expense                                $1,641,810
FY 2006      Home Office Expense                                $1,861,149


Total Unresolved Costs Pending Audit                            $9,601,236




                                               6
    Attachment 3




7
    Attachment 3 (continued)




8
                                                                    IG Report No. OAS-L-11-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the inspection would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
